OFFICE OF INSPECTOR GENERAL 



AUDIT OF USAID/HAITI’S
DEMOCRACY AND
GOVERNANCE ACTIVITIES

AUDIT REPORT NO. 1-521-08-004-P 

APRIL 25, 2008 





SAN SALVADOR, EL SALVADOR

                          Office of Inspector General




       April 25, 2008


       MEMORANDUM

       TO:        	         USAID/Haiti Director, Paul Tuebner

       FROM: 	              RIG/San Salvador, Timothy E. Cox /s/

       SUBJECT:	            Audit of USAID/Haiti’s Democracy and Governance Activities (Report No.
                            1-521-08-004-P)

       This memorandum transmits our final report on the subject audit. We have carefully
       considered your comments on the draft report in finalizing the audit report and have
       included your response in appendix II of the report.

       The report contains nine recommendations intended to improve accountability and
       implementation of the democracy and governance activities. Based on your comments,
       a management decision can be made on Recommendation Nos. 1, 2, 3, 4, 5, 7, and 8
       when USAID/Haiti provides us with target dates to complete the planned actions. A
       management decision for Recommendation No. 6 can be reached when USAID/Haiti
       clarifies whether or not the mission will stop the practice of hiring current staff members
       at ministries as consultants. Finally, a management decision for Recommendation No. 9
       can be reached when USAID/Haiti addresses the need to develop a detailed action plan,
       with specific tasks, benchmarks, timeframes, and responsibilities for each partner to
       establish a parliamentary research center. Determination of final action on the
       recommendations will be made by the Audit Performance and Compliance Division
       (M/CFO/APC).

       I want to express my appreciation for the cooperation and courtesy extended to my staff
       during the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit, 3110; APO, AA 34023
Tel: (503) 2501-2999 Fax (503) 2228-5459
CONTENTS 

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 4 


Audit Findings ................................................................................................................. 5 


     Mission Should Improve Its System for Establishing 

     Performance Targets .................................................................................................. 8 


     USAID/Haiti Should Assess the Effectiveness of 

     Training ....................................................................................................................... 9 


     Mission Needs to Improve Its Results Reporting System ......................................... 10 


     Improvements Needed in Providing Consultants to the Executive 

     Branch ...................................................................................................................... 12


     Parliamentary Research Center is Delayed .............................................................. 13 


Evaluation of Management Comments ....................................................................... 16 


Appendix I – Scope and Methodology ........................................................................ 17 


Appendix II – Management Comments ....................................................................... 19 

SUMMARY OF RESULTS

Since 1986, Haiti has not had much stability in government as over twelve different
regimes have held power. In 2006 the country made significant progress when elections
for both the president and parliament were held. Prior to and since these elections,
USAID/Haiti has supported democratic progress in Haiti to build more legitimate and
effective institutions. This audit focused on democracy and governance activities
pertaining to: (1) governance, (2) elections and political processes, and (3) civil society
(page 3).

As part of a worldwide audit of democracy and governance activities, the Regional
Inspector General (RIG)/San Salvador performed an audit to answer the following
question (page 4):

    •	 Are USAID/Haiti’s democracy and governance activities achieving their intended
       results and what has been the impact?

Of the 24 planned democracy and governance results in its fiscal year 2007 operational
plan and performance monitoring plan (PMP), USAID/Haiti met or exceeded 8 planned
results and did not meet 16 planned results. Of particular note were ten forums allowing
constituents around the country to meet and discuss matters with legislators.
Furthermore, providing space for the Senate to hold hearings regarding the budget
submitted by the executive was significant in that it helped the Senate exercise oversight
over executive spending plans. Achieving these two targets contributed to developing
accountability within the legislative and executive branches. On the other hand, the
inability to meet targets related to local governance and decentralization, as well as
media freedom and information lessened the potential impact of the democracy and
governance program. These activities would have helped create additional checks and
balances by creating power centers in the local governments and increasing the ability of
constituents to be informed of events through the media (page 5).

Of the two planned results in its PMP for FY 2006, the mission achieved the one relating
to elected officials taking office but fell short of its target for initiating civil society
committees (page 5).

In addition to the achieved planned results from the operational plan, USAID/Haiti’s
democracy and governance program achieved other positive results. For example, the
text of the United Nations Convention Against Corruption was published and distributed
to elected officials, civil society members, and media in Haiti. In addition, activities have
helped political parties develop stronger links with party members outside of the capital.
Finally, activities will help broaden political participation by helping a political party with
no officials currently in the government to run two candidates in the coming Senate
elections (page 6).

However, USAID/Haiti needs to strengthen controls and procedures related to:
establishing performance targets (page 8), assessing the effectiveness of training (page
9), improving its results reporting system (page 10), providing consultants to the
executive branch (page 12), and establishing a parliamentary research center (page 13).



                                                                                             1
This report recommends that USAID/Haiti:

•	 In coordination with its implementing partners, review and revise its 2008 targets as
   appropriate and communicate with partners regarding established targets (page 9).

•	 Require its implementing partners to include specific targets in annual work plans
   and performance monitoring plans and report progress towards these targets in
   progress reports (page 9).

•	 In coordination with its implementing partners, establish procedures for
   systematically following up with training participants to assess the impact or
   effectiveness of training (page 10).

•	 Require implementing partners to establish measurement systems to collect and
   maintain adequate data to support reported results (page 12).

•	 Require mission cognizant technical officers in the governance, justice, and
   democracy office to periodically verify results reported by partners (page 12).

•	 Stop permitting ministries to preselect candidates or hire current staff members as
   consultants (page 13).

•	 Require that ministry requests for consultants include guarantees that working space
   will be provided and that a supervisor be designated (page 13).

•	 Obtain formal commitments from the Government of Haiti and other donors to
   establish a parliamentary research center (page 15).

•	 Develop an action plan, in coordination with its partners, to establish the
   parliamentary research center, listing specific tasks, benchmarks, timeframes, and
   responsibilities for each partner (page 15).

USAID/Haiti agreed to implement the recommendations and has developed specific
plans to address the recommendations. Our evaluation of management comments is
provided in the Evaluation of Management Comments section of this report (page 16),
and USAID/Haiti’s comments in their entirety are included in Appendix II.




                                                                                      2
BACKGROUND

Since the end of the 29-year Duvalier dictatorship in 1986, Haitians have had to endure
over a dozen changes in government, including six military regimes, three appointed
transition governments, and four elected presidents (only one lasted for the full, legal
term). Key structures of government, including the parliament and local governments,
were not consistently implemented, leaving the governments without the means
necessary to represent citizen interests, achieve consensus, or provide public goods and
services. Because the resulting regimes were not regularly and predictably accountable
to an electorate, most national and local government institutions—which were never
strong—have become more corrupt and ineffective. According to Transparency
International, Haiti ranked last among 163 countries in 2006, and ranked 177 out of 179
countries in 2007 on the corruption perceptions index.

After the departure of President Aristide in June 2004, the United Nations established a
peacekeeping force in Haiti to provide a secure and stable environment, protect political
processes, and protect human rights. With the elections of President Rene Preval in
February 2006 and parliamentary elections in April 2006, the Freedom House rated Haiti
as partially free. In spite of these recent elections, Haiti continues to rank low in civil
liberties, political rights, accountability, and transparency.




                      Map of Haiti showing departmental boundaries

It is within this context that USAID has its democracy and governance activities which
support the newly elected government to build its legitimacy and effectiveness, including
local governments and decentralization, the legislative and executive functions, civil
society, and elections and political processes. The activities are implemented by the


                                                                                         3
following principal partners:

•	 State University of New York (SUNY) – provides training and technical assistance to
   the Haitian parliament.

•	 Centre de Formation et D’encadrement Technique (CFET) – recruits, hires, monitors,
   and pays individual consultants for the executive branch.

•	 Associates in Rural Development (ARD) – provides technical assistance and training
   to strengthen local governance and decentralization.

•	 La Fondation Heritage pour Haiti (LFHH) – promotes integrity, transparency, and
   anti-corruption reforms in the Government of Haiti and non-governmental
   organizations.

•	 Haiti Democracy Project, Inc. (HDP) – provides election observers.

•	 International Republican Institute/National Democratic Institute (IRI/NDI) – provide
   technical assistance and training to promote more effective political competition and
   consensus building.

•	 National Democratic Institute (NDI) – provides technical assistance and training to
   civil society organizations to increase citizen participation and improve advocacy and
   watchdog functions.

•	 Private Agencies Collaborating Together (PACT) – provides technical assistance and
   training to journalists and media outlets.

The audit focused on the following democracy and governance areas: (1) governance,
(2) elections and political processes, and (3) civil society. As of September 30, 2007,
USAID/Haiti’s democracy and governance program had total obligations of about $45.2
million and total expenditures of about $19.6 million. Other major donors in these areas
are the Government of Canada, the United Nations, and the European Union.

AUDIT OBJECTIVE
As part of a worldwide audit directed by the Office of the Inspector General’s (OIG)
Performance Audits Division, RIG/San Salvador audited USAID/Haiti’s democracy and
governance activities to answer the following question:
   •	 Are USAID/Haiti’s democracy and governance activities achieving their intended
      results and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                       4
AUDIT FINDINGS

Of the 24 planned democracy and governance results in its fiscal year 2007 operational
plan and performance management plan (PMP), USAID/Haiti met or exceeded 8
planned results and did not meet 16 planned results. Of particular note were 10 forums
allowing constituents around the country to meet and discuss matters with legislators.
Furthermore, providing space for the Senate to hold hearings regarding the budget
submitted by the executive branch was significant in that it helped the Senate exercise
oversight over executive spending plans. Achieving these targets contributed to
developing accountability within the legislative and executive branches. On the other
hand, the inability to meet targets related to local governance and decentralization and
media freedom and information lessened the potential impact of the democracy and
governance program. These activities would have helped create further checks and
balances by creating power centers in the local governments and increased the ability of
constituents to be informed of events through the media. Of the two planned results in
its PMP for FY 2006, the mission achieved the one relating to elected officials taking
office but fell short of its target for initiating civil society committees.

USAID/Haiti met or exceeded planned results in the areas of legislative functions and
processes, public sector executive functions, anti-corruption reform, and elections and
political processes. These results are described in the following sections.

Legislative Function and Processes - SUNY met one 2007 target by organizing and
funding 10 public forums outside of Port-au-Prince in which national legislators and the
citizens they represented interacted. The interaction helped to build a relationship
between national representatives and their constituents as representatives learned what
their constituents were most concerned about. The constituents were also able to
understand what the national legislators could and could not do in accordance with the
constitution.

SUNY was instrumental in the drafting of five laws that were passed by both the Senate
and the House of Deputies, surpassing the 2007 target of three laws. These dealt with
the budget approval and amendment process and independence of the judiciary from
the executive branch.

In relation to the above mentioned target, SUNY was able to find space for the Senate
finance committee to hold hearings regarding the budget proposed by the executive
branch and thus perform this oversight function. In doing so, SUNY met another 2007
target of three national executive oversight actions by the legislature. Without this
assistance, the Senate could not have held the hearings because it had no suitable
meeting rooms.

Finally, SUNY organized and held workshops and seminars for 186 elected officials and
their staffs, greatly exceeding the 2007 target of 40. These events provided information
on the legislative function, as many officials had been elected for the first time.

Public Sector Executive Functions - CFET was able to provide advisors for twelve
ministries or agencies of the executive branch (meeting the 2007 target).




                                                                                      5
Anti-Corruption Reform - LFHH surpassed its 2007 target of training 500 people
affiliated with non-governmental organizations by training 559 individuals.

Elections and Political Processes - After two years of an interim government,
USAID/Haiti supported the successful presidential and parliamentary elections in 2006
by providing election observers, and funding for registration and ballot boxes. This
helped USAID/Haiti meet its target of having these elected officials take office. It should
be noted that, while not a specific target for USAID/Haiti, the planned elections for a third
of the Senate have yet to take place. They were to be held in November 2007 but were
delayed by the Haitian Government. With U.S. encouragement, it is hoped these will
take place in the beginning of 2008.

In addition to the results achieved pertaining to the planned results in the operational
plan and PMP, the mission’s democracy and governance program has had some other
positive accomplishments and impact.

•	 LFHH published the text of the United Nations Convention Against Corruption in
   booklet form and distributed 1,000 copies to all the political parties to familiarize
   candidates in the parliamentary election with its content before the 2006 elections.
   The booklet was also sent to government officials and the media to create
   awareness of the importance of the Convention and to solicit their support for the
   ratification of the Convention. USAID also funded several senators and deputies to
   attend the 12th International Anti-Corruption Conference in Guatemala. These
   members of Parliament were the catalysts for the ratification of the Convention in
   May 2007.

•	 LFHH drafted two laws on “Access to Information” and “Protection for
   Whistleblowers” for presentation to Parliament. LFHH has presented the legislation
   through the Unite de Lutte Contre la Corruption (ULCC) and through the Protecteur
   du Citoyen (Ombudsman).

•	 USAID funded the 12-episode anti-corruption soap opera broadcast on 6 commercial
   radios in the capital and on 16 community radios throughout the country that reached
   a large segment of the population. Additionally, the government’s ULCC and six civil
   society organizations requested copies of the soap opera for upcoming training
   sessions.

•	 A consultant recruited by CFET produced a marketing document for the Ministry of
   Tourism. This document has been used in presentations to businesses.

•	 A consultant recruited by CFET produced a human resources manual for the Ministry
   of Education. The Prime Minister expressed interest in using the manual for his staff
   as well.

•	 NDI has been instrumental in the development of a political party that currently has
   no representation in the government but will be ready to contest at least two Senate
   seats in the coming elections.

•	 NDI has provided assistance that has allowed political parties to build their bases
   outside Port-au-Prince. This has allowed the parties to break with the previous



                                                                                           6
   modus operandi of having all decisions made by party members in the capital city.
   By working to include members around the entire country, the parties are closer to
   truly becoming national parties.




     Photo of Haitian political party headquarters taken by an OIG auditor on January 23, 2008

However, intended results were not achieved in FY 2007 for activities in local
governance and decentralization, media, elections and political processes, and other
activities. In fact, activities for local governance and decentralization and media were
not started in FY 2007 as planned.

Local Governance and Decentralization - The mission’s 2007 operational plan and
PMP contained planned targets for drafting decentralization laws or amendments,
assisting sub-national government entities, and training individuals. However, activities
were not started in 2007 mainly because of USAID/Haiti staff shortages that delayed
preparation of three requests for proposals as well as because of a delay in municipal
elections. The mission entered into a main agreement with the implementing partner in
September 2007 to begin this important activity.

Media Freedom and Freedom of Information - The mission’s FY 2007 operational
plan and PMP contained planned targets for assisting 40 radio stations, training 200
journalists, and assisting 7 civil society organizations. Activities were not started in FY
2007 due to delays in obtaining an acceptable proposal that would meet program needs.

Other Activities - Several targets dealing with the number of individuals receiving
political party training, the number of political parties assisted, the number of people
receiving civic education training, and the number of civil society organizations assisted
were not met due to unrealistic targets. These targets were established without
consultation or communication with implementing partners. Details are provided in the
finding below.

The following sections include findings to improve the program’s performance monitoring
system as well as opportunities to improve the program’s effectiveness.




                                                                                                 7
Mission Should Improve Its System
for Establishing Performance Targets

Summary: USAID TIPS No. 8 indicates that program performance targets are to be based
on careful analysis of what is realistic. In addition, ADS 203.3.4.5 says that indicators should
have targets that can be realistically achieved based on the circumstances. Five of the 2007
targets were not realistic as they were mostly based on the previous year’s results and
circumstances and had not been discussed with the partners before they were developed.
Furthermore, targets were not included in partner work plans or performance monitoring
plans as some targets were not communicated to implementing partners. As a result, the
mission did not appropriately measure the program’s true progress, as reporting results
relative to an unrealistic target may not provide any useful information. Also, without
knowing the specific targets to be achieved, implementing partners are less likely to
achieve them.

According to USAID TIPS No. 8, program performance targets should be based on
careful analysis of what is realistic to achieve, given the conditions within the country
and other factors. USAID Automated Directives System (ADS) Section 203.3.4.5 states
that each indicator should include a performance baseline and set performance targets
that can optimistically but realistically be achieved within the stated timeframe and with
the available resources. Targets that are set too low become irrelevant and are not
useful for management and reporting purposes.

ADS 202.3.6 states that in order to monitor the quality and timeliness of outputs
produced by implementing partners, outputs should be specific. The guidance also
states that outputs are critical to achieving results. ADS 200.3.2.1 states that
performance outputs need to be explicit in order to manage for results.

However, 5 of the 24 targets for fiscal year 2007 were not realistic. For example, the
2007 operational plan and PMP had a target to train 59,000 individuals in civic education
and another target to assist 55 organizations in advocacy and watchdog functions.
These targets were not discussed with the main implementing partner and, according to
partner officials and the mission’s cognizant technical officer (CTO), were not realistic.
The mission reported that it trained 18,780 individuals and assisted 10 civil society
organizations, falling well short of the targets. In addition, several 2008 targets for
decentralization and anti-corruption reform are not realistic and need to be revised. For
example, the planned 2008 target for the number of individuals receiving local
government and/or decentralization training is 25. However, the chief of party for this
activity stated that their proposal and plan include training 496 individuals. In another
case, the 2008 targets for training in anti-corruption activities are no longer applicable as
the relevant agreement ended in December 2007.

The reasons why targets were not realistic were a lack of discussion with implementing
partners before determination, and the fact that they were based on 2006 results without
any consideration of 2007 plans and circumstances.

Furthermore, targets were not included in partner work plans or performance monitoring
plans, and progress toward these targets was not included in progress reports.



                                                                                              8
As a result, the mission did not appropriately measure the program’s true progress, as
reporting results relative to an unrealistic target may not provide any useful information.
Also, without knowledge of the specific targets to be achieved, implementing partners
are less likely to achieve them.

   Recommendation No. 1: We recommend that USAID/Haiti, in coordination with
   its implementing partners, review and revise its 2008 targets as appropriate and
   communicate with partners regarding established targets.

   Recommendation No. 2:        We recommend that USAID/Haiti require its
   implementing partners to include specific targets in annual work plans and
   performance monitoring plans and report progress towards these targets in
   progress reports.

USAID/Haiti Should Assess
the Effectiveness of Training

Summary: ADS 203.3.2 states that USAID operating units are responsible for establishing
systems to measure progress towards intended objectives. In addition, training is a critical
component of the democracy and governance program at USAID/Haiti. However, the
implementing partners and USAID/Haiti have not developed a formal system for evaluating
the effectiveness of the training provided to the participants. Evaluating the impact of
training was not done because the development of a formal training evaluation system was
not considered during the design stage of the training. Without assessing the effectiveness
of training, USAID does not know if its training programs are having the desired impact or
could be better tailored to the needs of the participants. Also, assessing the impact of
training may yield greater returns on training investments and provide management better
information to determine future training needs.

According to ADS 203.3.2, operating units are responsible for establishing systems to
measure progress towards intended objectives. Also, effective training is a critical
component of the democracy and governance program at USAID/Haiti. In fiscal year 2007,
USAID/Haiti, through its implementing partners, reported training over 41,000 people in the
areas of civic education, elections and political processes, anti-corruption, and legislative
functions and processes. In fiscal year 2008, the mission plans to continue to provide
training in these areas as well as providing training on local governance and
decentralization, media freedom, and freedom of information.

Training transfers new skills, knowledge, and attitudes for the purpose of improving the
performance of individuals and their associated organizations, offices, or work units.
Training answers questions such as what needs to be done differently, e.g., better, faster,
more efficiently to reach a given objective, and what other conditions need to be in place for
the newly acquired skills, knowledge, and attitudes to be applied effectively. Therefore, the
impact of training should be monitored and evaluated to ensure that desired results are
achieved. According to ADS 253, Training for Development, sponsoring units are
encouraged to consider the broader operational context in which the participant’s newly
acquired skills, knowledge, and attitudes will be applied.

The timing of evaluation is also key – best practices suggest that a two-part approach
should be taken. In the first place, participants’ reactions and learning during the


                                                                                            9
program should be considered. Secondly, the mission should take into account how
training is applied in the job and what the benefits are. For best results, the evaluation
process should be planned into the training right from the start and, for many
organizations, this includes a rigorous precourse briefing before participation in training.
As well as timing, duration is important – how long after the program will benefits be
tracked? The answer depends if the program is likely to yield benefits over the longer
term or whether results will be evident quickly.

However, the implementing partners and USAID/Haiti have not developed formal
systems for evaluating the effectiveness of the training provided to the participants
because this was not considered during the design stage of the training. Implementing
partners acknowledged that they did not have formal evaluation systems for the training
and workshops conducted, although one partner mentioned that, for one session,
participants were asked to complete an evaluation form immediately after the session.
Another partner mentioned that it had not occurred to them to establish such a system
during the design stage, but that it was a good idea and could be useful to make
adjustments to the course and presentation material. The mission also agreed that no
formal system for evaluating training is in place as it would be difficult to determine the
best measure.

In addition, nine beneficiaries interviewed felt that the training was useful, but several
would emphasize practical training over the theoretical training. For example, training
courses on the tasks a treasurer or secretary of a political party is to perform were more
immediately beneficial than those describing the theory of democracy.

Measuring the effectiveness of a training program consumes valuable time and
resources, but it is important and should be an integral part of any training. Without
assessing the effectiveness of training, USAID does not know if its training programs are
having the desired impact or could be better tailored to the needs of the participants.
Training programs may fail to deliver the expected organizational benefits; therefore,
having a well-structured measuring system in place can help the mission determine
where the problem lies. Also, assessing the impact of training yields greater returns on
training investments and provides management better information to determine future
training needs.

   Recommendation No. 3: We recommend that USAID/Haiti, in coordination with
   its implementing partners, establish procedures for systematically following up
   with training participants to assess the impact and effectiveness of training.

Mission Needs to Improve
Its Results Reporting System
Summary: ADS 203.3.5.2 states that USAID operating units are to be aware of strengths
and weaknesses when it comes to data used for management decisions. Building on this,
TIPS 12, Analyzing Performance Data, says that little value can be attributed to good
indicators if the data collected does not properly measure them. USAID’s Cognizant
Technical Officers Guidebook on USAID Acquisition and Assistance adds that CTOs are to
ensure the accuracy of reports submitted, and implementing partners should maintain
records supporting reported results. However, adequate records were not always kept to
support reported results. Of the 15 results reported in the 2007 operation plan, support was


                                                                                         10
lacking for 6. Proper documentation was not a high priority for partners and CTOs did not
consistently verify reported results. This has led to incorrect reported results and a lack of
assurance regarding the validity of reported results. Periodic verification of the results
reported by partners would lead to more accurate results reporting.

USAID provides its operating units with a great deal of guidance to assist with their
ability to manage for results. USAID’s Automated Directives System (ADS) 203.3.5.2
states that the operating unit and the strategic objective team should be aware of the
strengths and weaknesses of their data and to what extent the data can be trusted to
influence management decisions. Additionally, USAID’s Performance Management
Toolkit supplementary guidance document states that the goal to assessing data from
implementing partners and secondary sources is to be aware of the data strengths and
weaknesses and the extent to which data can be trusted when making management
decisions and reporting. It also states that a practical approach to planning data quality
assessments includes an initial data quality assessment and periodic quality reviews for
completeness, accuracy, and consistency.

USAID guidance, TIPS 12, Analyzing Performance Data, states that even valid
indicators have little value if the data collected does not correctly measure the variable
or characteristic encompassed by the indicator. TIPS 12 also emphasizes the
importance of documentation to maintenance of quality performance indicators and data.

Additional guidance is provided in USAID’s Cognizant Technical Officers Guidebook on
USAID Acquisition and Assistance, which states that CTOs are responsible for ensuring
the accuracy of all reports submitted by their implementing partners.

The mission and its implementing partners did not always maintain adequate supporting
documentation for results reported. For example, of the 15 indicators included in the
2007 operational plan and PMP for which results were reported (activities for the
remaining nine had not begun in FY 2007), the mission or implementing partners did not
maintain adequate support for 6 reported results. In one instance, instead of maintaining
the actual attendance sheets, an implementing partner used estimates, ranging from 3 to
35 persons per training session, to report the number of people who attended training.
For the indicator “number of individuals who received political party training,” the mission
reported 21,486 individuals trained in FY 2007. However, the mission was not able to
provide sufficient support for this result. For the indicator “number of government
officials receiving anti-corruption training,” the mission reported 254 individuals trained in
FY 2007. In fact, the supporting documentation showed 575 individuals trained.

Partners did not understand the importance of maintaining supporting documentation for
results reported. Certain partners stated that keeping documentation for numbers
reported was only for the auditors’ benefit. Therefore, this became a low priority for
them. CTOs did not periodically verify results reported by implementing partners. In
collecting and reporting results for the indicators, the mission’s program office obtained
the information verbally from CTOs instead of obtaining supporting documentation. The
mission only started doing data quality assessments of these indicators in September
2007. The assessment of the indicator for “number of individuals who have completed
civic education programs” noted that documentation supporting the figures reported to
the mission could not be found. Another assessment of the indicator for “number of
government officials attending anti-corruption training” stated that, because estimates



                                                                                           11
were used to report results, the program office was unable to trace reported results to
source documentation.

Consequently, in some cases, reported results were incorrect. In addition, without
adequate supporting documentation, one can not determine if the information reported is
correct, which could lead to incorrect conclusions on the progress of the program’s
activities.

   Recommendation No. 4: We recommend that USAID/Haiti require implementing
   partners to establish measurement systems to collect and maintain sufficient and
   appropriate data to support reported results.

   Recommendation No. 5: We recommend that USAID/Haiti require cognizant
   technical officers in the Governance, Justice, and Democracy Office to
   periodically verify results reported by partners.

Improvements Needed in Providing
Consultants to the Executive Branch
Summary: Since early 2005, the Centre de Formation et d’Encadrement Technique has
had an agreement with USAID to recruit, hire, monitor, and pay consultants for the executive
branch of the Government of Haiti to help build institutional capacity in ministries. However,
the requesting ministries often provide a preselected candidate along with a request for a
consultant and scope of work. This led to consultants being tasked with day-to-day duties
that would normally be performed by civil servants as opposed to the tasks in the scopes of
work. In some cases, ministries preselected candidates who were currently working as civil
servants in the ministries, and were therefore, unlikely to bring new capabilities to the
ministries. This occurred because the mission wanted to be responsive to GOH needs.
With some preselected candidates getting sidetracked with civil servant work, certain
deliverables have been delayed. Preselection increases the risk of nepotism and corruption
as well.

USAID signed a 10-month contract with the Centre de Formation et d’Encadrement
Technique (CFET) in February 2005 for recruiting, hiring, monitoring, and paying
individual consultants for the Interim Government of Haiti.          The newly elected
Government of Haiti (GOH) requested the U.S. Government to provide short-term and
long-term advisors to the ministries. This agreement has been extended several times
to May 2008. Ministries provide a request for a consultant to the Ministry of Planning
including a scope of work. After review by the Ministry of Planning, the request is
forwarded to CFET to recruit, hire, and monitor the consultant. Although the scopes of
work vary, the overall intent of providing consultants is for institutional building (e.g.,
preparation of strategic and action plans and development of policies and procedures).

Several improvements are needed with regard to implementation of this activity. First,
most of the consultants were preselected by the ministries. Of the 14 consultants
currently working at the ministries, 10 were handpicked by the requesting ministry. In
addition, for four of the six new requests for consultants for 2008, the ministries
preselected the candidate. Although CFET vets the handpicked candidates, we noted
all 10 preselected candidates were hired. In one case, CFET expressed reservations
regarding the qualifications of the candidate to perform the tasks in the scope of work.


                                                                                           12
In this case, instead of recruiting a more qualified candidate, the scope of work was
revised so that the same preselected candidate could be hired.

Preselection of candidates also led to other problems. For example, four candidates
were already working in the requesting ministry as civil servants when they were hired
as consultants. This practice can create an appearance of a conflict of interest or self-
dealing. In addition, this practice does not bring new resources to the assisted
ministries. Although it may help ministries retain potentially talented staff members who
otherwise seek employment elsewhere, this practice is currently discouraged but
allowed by USAID/Haiti. Moreover, the chief of party for CFET indicated that several
preselected consultants were working on day-to-day tasks that civil servants would be
expected to perform instead of the important institutional building they were tasked to
perform. The program up to now has allowed ministries to preselect candidates as it
was not fully aware of the negative consequences and wanted to be responsive to
ministries.

Another issue was that ministries did not provide office space for two consultants. CFET
subsequently resolved this issue by speaking with the corresponding ministries and by
allowing one consultant to work in its offices for three months. Office space is needed
so that consultants can be productive and provide the capacity building intended.
Scopes of work do not specifically require ministries to provide work space.

Finally consultants did not always have an immediate supervisor. An immediate
supervisor is needed to receive work deliverables and to provide periodic evaluations of
the consultant. Without a supervisor, the consultant may not have the necessary
feedback and support needed. Ministries have not placed enough emphasis regarding
supervision.

By accepting preselected candidates who end up performing day-to-day civil servant
type tasks, certain deliverables have been delayed. The CFET report for August 1 to
September 14, 2007 states that some of the delayed deliverables were due to
consultants being used as civil servants. Also, there is a risk of favoritism or nepotism
on the part of the ministries, or that the most qualified person will not be hired. These
matters need to be addressed as the mission intends to continue providing consultants
to the executive branch under a new three-year agreement valued at over $15 million.

   Recommendation No. 6: We recommend that USAID/Haiti stop permitting
   ministries to preselect candidates or hire current staff members as consultants.

   Recommendation No. 7: We recommend that USAID/Haiti require that ministry
   requests for consultants include guarantees that working space will be provided
   and that a supervisor be designated.

Parliamentary Research Center
Is Delayed
Summary: One of the main objectives of USAID’s work with the Government of Haiti’s
parliament is to establish a parliamentary service center to perform a number of functions
essential to legislative effectiveness. Although USAID plans to provide significant technical
and material support to create the service center, its ultimate success and sustainability will


                                                                                            13
depend on the commitment of the GOH, as well as the support of the international
community. Progress in establishing a service center has been slow in part because
Parliament had to identify a location for the service center. Also, USAID does not have (1) a
formal commitment from the Parliament and the other expected donors to provide support,
and (2) an action plan, listing specific benchmarks, timeframes, and responsibilities among
the parties, to establish the research center. Without formal commitments from all parties to
be involved along with an action plan, there is a greater risk that a parliamentary service
center will either not be established or will not be established in a reasonable period of time.

The program design for the agreement with the State University of New York (SUNY)
awarded in July 2006 envisioned the creation of a parliamentary service center (similar
to the Library of Congress for the U.S. Congress) able to perform a number of functions
essential to legislative effectiveness. This parliamentary service center is intended to be
the professional core of the institution. It would constitute a major focal point for present
and future investments and is expected to provide a level of professional service
presently unavailable to Parliament. Its creation would sidestep the issue of reforming
the whole staff structure and reducing the staff before engaging in capacity building.
The work plan covering April 2007 to September 2008 stated that although USAID and
SUNY do not have the authority and resources to create such an institution and to
ensure its functionality, they can provide significant technical and material support for the
effort to create it. Its ultimate success and sustainability will depend on the commitment
of the Parliament and the GOH executive branch, as well as the support of the
international community.

One of the main activities listed in the workplan is to support the creation of a
professionally staffed parliamentary service center combining basic documentation,
research, and communications functions, including public relations and the press. The
work plan states that the initial set of activities regarding the parliamentary service center
will focus on its institutional design and the engagement of the parliamentary leadership,
and coordination among other interested donors. Thereafter, and in coordination with
other donors, this USAID activity will support equipment and personnel recruitment and
training. The additional support is anticipated from the U.S. Congress’ House
Democracy Action Commission (technical assistance), the Government of Canada, the
parliamentary center (technical assistance, building, and equipment), and the French
Parliament (technical assistance).

Discussions with USAID/Haiti and SUNY officials indicate that this activity had been
delayed as they have been waiting for the Parliament to identify a building for the center.
Recently, Parliament tentatively identified a building, but a final decision has not been
made on whether the building can be used for the research center. In addition, SUNY
has a bid out for an architectural design to renovate and refurbish the possible site.
SUNY officials stated that SUNY has a budget of about $500,000 for this activity. They
stated that the Canadian and French governments along with the U.S. Congress’ House
Democracy Action Commission will assist and provide resources. However, they
acknowledged that they have to determine which party will provide which support and
resources and when the support and resources will be provided.




                                                                                             14
Photos taken by an OIG auditor on January 25, 2008 of the inside and outside of the site tentatively
selected to be the parliamentary research center

USAID and SUNY do not have (1) a formal commitment from the Parliament regarding
the establishment of a research center and the other expected donors to provide support
and (2) an action plan, listing specific benchmarks, timeframes, and responsibilities
among the parties, to establish a center. Without formal commitments from all parties to
be involved along with an action plan, there is a greater likelihood that a parliamentary
research center will either not be established or will not be created in a reasonable
amount of time. Therefore, resources could be wasted in the process. Furthermore, the
process of developing a detailed action plan in coordination with all parties could help to
increase commitment and support for this important activity, and thus speed up
implementation.

    Recommendation No. 8: We recommend that USAID/Haiti obtain formal
    commitments from the Government of Haiti and other donors to establish a
    parliamentary research center.

    Recommendation No. 9: We recommend that USAID/Haiti develop an action
    plan, in coordination with its partners, to establish the parliamentary research
    center, listing specific tasks, benchmarks, timeframes, and responsibilities for
    each partner.




                                                                                                 15
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Haiti agreed to implement the recommendations
and has developed specific plans to address Recommendation Nos. 1, 2, 3, 4, 5, 7, and
8. For example, with regard to Recommendation Nos. 4 and 5, the mission stated that it
is establishing data verification procedures by the CTOs in coordination with the
Program Office. In addition, each CTO will present a brief written report on progress
toward meeting indicators, results of spot checks on the quality of supporting data, and
field visits in a monthly internal Governance portfolio review. A management decision
can be made on Recommendation Nos. 1, 2, 3, 4, 5, 7, and 8 when USAID/Haiti
provides us with target dates to complete the planned actions.

Regarding Recommendation No. 6, USAID/Haiti stated that it will meet with the new
contractor and the GOH to reiterate and obtain written agreements that all hiring will be
based on technical needs and not based on the skills or abilities of individual candidates.
In addition, the mission will work with the contractor to ensure that the most appropriate
candidates are selected to work as advisors from an objective sourcing on the open
market. We believe that the mission comments are responsive to the first part of the
recommendation pertaining to preventing the ministries from pre-selecting candidates.
However, it is unclear whether or not the mission will stop the practice of hiring current
staff members at ministries as consultants, and thus, a management decision on
Recommendation No. 6 is pending.

In response to Recommendation No. 9, USAID/Haiti stated that the new leadership in
Parliament has reconfirmed its commitment to the Strategic Plan for Parliamentary
Development, which included the parliamentary research center. The donor working
group on parliamentary affairs will continue to address the commitment issues with the
leadership of parliament. While this information is noteworthy, the comments do not
address the need to develop a detailed action plan, listing specific tasks, benchmarks,
timeframes, and responsibilities for each partner to establish a parliamentary research
center. Therefore, a management decision is pending.

Mission comments in their entirety are presented in Appendix II.




                                                                                        16
                                                                                  APPENDIX I 



SCOPE AND METHODOLOGY

Scope
RIG/San Salvador conducted this performance audit in accordance with generally
accepted Government auditing standards to determine if USAID/Haiti’s democracy and
governance activities are achieving their intended results and what the impact of its
program has been. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective. Audit fieldwork was conducted at USAID/Haiti from January 14, 2008, through
January 31, 2008. The audit covered the period from October 1, 2005 through
September 30, 2007.

In planning and performing the audit, we assessed management controls related to
management review, and review of performance measures and indicators. Specifically,
we obtained an understanding and evaluated (1) the fiscal year 2006 annual report (was
not required for fiscal year 2007), (2) the fiscal year 2007 operational plan (new
requirement for fiscal year 2007), (3) the fiscal year 2007 performance monitoring plan,
(4) the mission’s Federal Managers’ Financial Integrity Act of 1982 assessment, (5) the
oversight performed by cognizant technical officers, (6) performance measures, and (7)
data quality assessments. We also conducted interviews with key USAID/Haiti
personnel, implementing partners, Haitian government officials, and beneficiaries. We
conducted the audit at USAID/Haiti, located in Port-au-Prince, Haiti and visited
implementing partners and beneficiaries located in Port-au-Prince and Petionville.

We reviewed the 24 democracy and governance program indicators included in the
fiscal year 2007 operational plan and PMP as well as the two indicators included in the
PMP for fiscal year 2006. The main implementers were SUNY, IRI, NDI, CFET, and
LFHH.

Methodology
To answer the audit objective, we reviewed the fiscal year 2006 annual report and the
fiscal year 2007 operational plan and PMP’s planned and actual results. At USAID/Haiti,
the democracy and governance program reported results for 15 standard indicators in
fiscal year 2007 per the PMP. We also reviewed the mission’s planned and actual
results for fiscal year 2006. The mission reported on two indicators for fiscal year 2006.

We validated performance results and compared reported information to documented
results (progress reports, participant training lists, draft laws, etc.) for these indicators in
order to verify the mission’s determination of the project’s performance.

We selected the five main agreements that were active during our audit period. For the
five agreements (implemented by SUNY, IRI, NDI, CFET, and LFHH), we reviewed the
implementing partners’ agreement documents, progress reports, and work plans.




                                                                                             17
                                                                                APPENDIX I

We reviewed applicable laws and regulations, and USAID policies and procedures
pertaining to USAID/Haiti’s democracy and governance program including the following:
the mission’s 2007 Federal Managers’ Financial Integrity Act of 1982 assessment;
Foreign Assistance Act of 1961 section 116 (e); USAID guidance, TIPS 8 and 12; and
Automated Directives System chapters 200, 201, 202, 203, and 253.

We also conducted interviews with USAID/Haiti’s democracy and governance CTOs,
regional legal advisor, financial analysts, program office officials, embassy political office
members, implementing partners, and beneficiaries to determine (1) the progress of
activities, (2) how targets were established, (3) how consultants were selected, and (4)
what evaluation system was in place for training activities.




                                                                                           18
                                                                            APPENDIX II 



MANAGEMENT COMMENTS

To:             Timothy Cox, RIG/ San Salvador

From:           Paul Tuebner, Mission Director

Date:           March 28, 2008

Subject:        Mission Response to the Draft Audit Report of USAID/ Haiti’s Governance
                Program (Audit Report No. 1-521-08-00x-P)

Following is USAID/Haiti’s formal response to the draft audit report, which you
transmitted to us on February 28, 2008. Overall, we believe that the findings and
recommendations are constructive.

The auditors identified opportunities to improve our future program results and
performance measurement. The audit recommendations provide specific, actionable
steps to strengthen Governance reporting procedures.

With this in mind, we would like to provide our comments and reactions for your
consideration and for incorporation into the final report.

      Recommendation No. 1: We recommend that USAID/Haiti, in coordination with
      its implementing partners, review and revise its 2008 targets as appropriate and
      communicate with partners regarding established targets.

Haiti’s political and security landscape is shifting ground, and sudden changes are
the norm rather than the exception. While we could have periodically revised our
targets to reflect changes in exogenous variables, we have to recognize that too-
frequent target adjustments might render them meaningless.

USAID/Haiti is now working with the new implementing partners within the
Governance portfolio to review and revise as necessary the 2008 targets for the
upcoming Operational Plan.

      Recommendation No. 2: We recommend that USAID/Haiti require its
      implementing partners to include specific targets in annual work plans and
      performance monitoring plans and report progress towards these targets in
      progress reports.

Each Governance CTO has consulted their implementing partners on their annual work
plan and their regular performance monitoring plans. The CTOs will provide monthly
updates on the progress being made to meet the goals established.

      Recommendation No. 3: We recommend that USAID/Haiti, in coordination with
      its implementing partners, establish procedures for systematically following up
      with training participants to assess the impact or effectiveness of training.



                                                                                         19
                                                                               APPENDIX II

The audit accurately indicates that evaluating the impact of short-term training activities
is difficult and we note that training impact evaluation is prohibitively expensive. The
CTOs will work with the implementing partners to look into follow-up exercises to
determine impact. Prior to initiating any action, USAID/Haiti will work with our Office of
Acquisitions and Assistance with costs concerns for any modification, if needed, to the
assistance instruments for systematic follow-up.

   Recommendation No. 4: We recommend that USAID/Haiti require implementing
   partners to establish measurement systems to collect and maintain adequate
   data to support reported results.

   Recommendation No. 5: We recommend that USAID/Haiti require cognizant
   technical officers in the Governance, Justice, and Democracy Office to
   periodically verify results reported by partners.

The reporting verification procedures being established by the CTOs in coordination with
the Program Office respond to both recommendation 4 and 5. To ensure that the new
verification procedures are followed consistently and that they are documented, we plan
to institute a monthly internal Governance portfolio review. Each CTO will present a
brief written report on progress toward meeting indicators, results of spot checks on the
quality of supporting data, and field or site visits. This will enable us to spot problems or
deviations early on, and to take corrective action as needed.

   Recommendation No. 6: We recommend that USAID/Haiti stop permitting
   ministries to pre-select candidates or hire current staff members as consultants.

The current contract under which USAID hires expert advisors for the Government of
Haiti (GOH) will end on May 30, 2008. It is anticipated that a new contract will be in
place by then, under which USAID will:

1. Schedule an initial meeting with the new contractor and the Government of Haiti
(GOH), represented by the Ministry of Planning and External Affairs, to reiterate and
obtain written agreements that all hiring will be based on technical needs that line
Ministries require from consultants/advisors and not based on the skills or abilities of
individual personalities.

2. Ensure that the CTO, technical offices and, as appropriate, USAID senior
managers, work with the contractor to ensure that the most appropriate candidates
are selected to work as advisors from an objective sourcing on the open market.

3. Schedule and hold quarterly meetings between the Ministry of Planning and
External Affairs, the USAID CTO, and the contractor to monitor all requirements of
the USAID contract, as well as the technical needs of the GOH.

    Recommendation No. 7: We recommend that USAID/Haiti require that ministry
   requests for consultants include guarantees that working space will be provided
   and that a supervisor be designated.

USAID will require each terms of reference (scope of work) contain a provision that
the Government of Haiti will provide adequate office space for each contractor and



                                                                                           20
                                                                            APPENDIX II 


that a supervisor be designated. The contractor will undertake the necessary due
diligence before the advisor begins work to ensure that there is adequate office
space and that a supervisor has been designated. USAID CTO concurrence with the
selection of each new advisor will be contingent upon the contractor providing written
documentation that adequate office space has been provided by the GOH and the
name of the supervisor for the position has been given.

   Recommendation No. 8: We recommend that USAID/Haiti obtain formal
   commitments from the Government of Haiti and other donors to establish a
   parliamentary research center.

   Recommendation No. 9: We recommend that USAID/Haiti develop an action
   plan, in coordination with its partners, to establish the parliamentary research
   center, listing specific tasks, benchmarks, timeframes, and responsibilities for
   each partner.

Both houses of Parliament have recently elected new leadership (members of their
respective “Bureaus”), with the result that the project has new and apparently more
engaged counterparts who have reconfirmed Parliament’s commitment to the “Strategic
Plan for Parliamentary Development.” This plan, which the USAID project developed
jointly with Parliament and other donors in 2007, included the parliamentary research
center. The Donor Table (Working Group) on Parliamentary affairs will continue to
address the commitment issue with the leadership of the Senate and Chamber of
Deputies, in addition to relevant GOH executive counterparts.




                                                                                         21
U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave., NW 

         Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
